                              Closeout for M95030013
   The complainant1 wrote to the program manager2 describing allegations of
intellectual theft and a violation of the confidentiality of the peer review process
against the subject.3 The program manager notified the Deputy Division Director
who sent a memorandum to OIG on March 30, 1995, informing it of the allegations.
OIG learned that the complainant had been sent the subject's NSF proposal4 to
review and returned it to NSF unreviewed because he believed that the proposal
contained ideas similar to ones in his previous proposals, and h e could not
objectively comment on it. Specifically, the complainant alleged that distinct ideas
were taken from some combination of his a) three NSF proposals, b) two NIH
proposals, or c) one other proposal to a private organization5 and incorporated into
the subject's proposal. The complainant noted however, that it was possible that
the subject had independently developed the ideas, and that much of the subject's
proposal was a straightforward extension of the subject's earlier work.
    OIG learned that the subject had received one of the complainant's NSF
proposalsG to review. However, the complainant's proposal was sent to the subject
after the subject submitted his NSF proposal that the complainant received for
review. This was the only proposal submitted to NSF by the complainant that the
subject reviewed. OIG learned from NIH that the subject had not reviewed either
of the two proposals submitted by the complainant to NIH. OIG learned from the
private organization that the subject had not reviewed the proposal the
complainant submitted to it. Thus, OIG concluded there was no substance to
support the allegation that the subject violated the confidentiality of the peer
review process.
    OIG identified approximately three sentences of text in the subject's proposal
that were substantially similar to text in the complainant's proposal to the private
organization. The text was not cited to the complainant and, as presented, would
be considered as text written by the subject. OIG asked an independent, qualified
scientist7 to review the two proposals for further evidence of overlap between them,
with a particular focus on the ideas the complainant alleged were taken from his
proposal. The scientist was unable to identify any overlap of ideas, methodology, or
text, other than the words in the three sentences already i d e n t s e d by OIG. The
scientist said that it was his opinion that the two proposals were distinct.
    OIG asked the complainant t o clarify his allegation, i-e., specifically to identify
the text, ideas, or methodology that he believed was misappropriated by the subject.

   1 (footnote redacted).
   2 (footnote redacted).
   3 (footnote redacted).
   4 (footnote redacted).
   5 (footnote redacted).
   6 (footnote redacted).
   7 (footnote redacted).



                                      Page 1 of 2
                               Closeout for M95030013


text, other t h a n the words in the three sentences already identified by OIG. The
scientist said t h a t it was his opinion t h a t the two proposals were distinct.
   OIG asked the complainant to clarify his allegation, i.e., specifically to identify
the text, ideas, or methodology t h a t he believed was misappropriated by the subject.
The complainant looked at the proposals in detail and could find no overlap other
than t h a t already identified, and was unable to provide further information.
Regarding the text t h a t appeared in both the subject's and complainant's proposals,
the complainant told OIG t h a t he had given several seminars on this research topic,
including a presentation at the subject's university. It is possible t h a t the use of the
words and phrases identified by OIG in the.subject's proposal arose from the
complainant's use of them during one of his colloquia rather t h a n by plagiarizing
the complainant's material. With the exception of the three sentences, both the
independent scientist and the complainant agree t h a t the proposals contain no
overlapping ideas, methodology, or text.
   OIG concluded t h a t given the lack of overlap, the complainant's statement that
the subject may have independently developed the ideas in his proposal, and our
finding t h a t the subject had not reviewed the complainant's proposal, it is
reasonable to conclude, a s the scientist did, t h a t these proposals are distinct.
Although similar words and phrases appeared i n both the subject's and
complainant's proposals, there was no clear evidence t h a t the subject had
substantially copied from the complainant's proposal. OIG concluded t h a t there
was insufficient substance to the allegations of intellectual theft and verbatim
plagiarism to pursue this inquiry.
   This inquiry is closed and no further action will be taken on this case.


cc: Legal, AIG-Oversight, IG




                                       Page 2 of 2
